<html>
<title> - HEARING TO CONSIDER THE NOMINATIONS OF JOE LEONARD JR., KATHLEEN A. MERRIGAN, AND JAMES W. MILLER TO THE U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 111-243]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-243

                  HEARING TO CONSIDER THE NOMINATIONS
                    OF JOE LEONARD JR., KATHLEEN A.
                     MERRIGAN, AND JAMES W. MILLER
                 TO THE U.S. DEPARTMENT OF AGRICULTURE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             APRIL 1, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov





                  U.S. GOVERNMENT PRINTING OFFICE
54-567 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Hearing to Consider the Nominations of Joe Leonard Jr., Kathleen 
  A. Merrigan, and James W. Miller, to the U.S. Department of 
  Agriculture....................................................     1

                              ----------                              

                        Wednesday, April 1, 2009
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, U.S. Senator from the State of Iowa, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     6
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     3
Conrad, Hon. Kent, U.S. Senator from the State of North Dakota...    11
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     3
Kilpatrick, Hon. Carolyn C., a Representative in Congress from 
  the State of Michigan..........................................     8

                                Panel I

Leonard, Joe, Jr., of the District of Columbia, Nominee to be 
  Under Secretary for Civil Rights, U.S. Department of 
  Agriculture....................................................     9
Merrigan, Kathleen A., of Massachusetts, Nominee to be Deputy 
  Secretary, U.S. Department of Agriculture......................     4
Miller, James W., of Virginia, Nominee to be Under Secretary for 
  Farm and Foreign Agricultural Services, U.S. Department of 
  Agriculture....................................................    12
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    30
    Grassley, Hon. Charles E.....................................    33
    Leonard, Joe, Jr.............................................    34
    Merrigan, Kathleen A.........................................    37
    Miller, James W..............................................    40
Document(s) Submitted for the Record:
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Joe Leonard, Jr............................    44
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Kathleen A. Merrigan.......................    59
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by James W. Miller............................    82
Question(s) and Answer(s):
Harkin, Hon. Tom:
    Written questions to Kathleen Merrigan.......................   104
    Written questions to Joe Leonard, Jr.........................   105
    Written questions to James W. Miller.........................   106
Baucus, Hon. Max:
    Written questions to Kathleen Merrigan.......................   107
    Written questions to Joe Leonard, Jr.........................   107
    Written questions to James W. Miller.........................   108
Chambliss, Hon. Saxby:
    Written questions to Kathleen Merrigan.......................   110
    Written questions to James W. Miller.........................   110
Cochran, Hon. Thad:
    Written questions to Kathleen Merrigan.......................   112
    Written questions to James W. Miller.........................   113
Grassley, Hon. Charles E.:
    Written questions to James W. Miller.........................   114
    Written questions to Kathleen Merrigan.......................   114
    Written questions to Joe Leonard, Jr.........................   115
Roberts, Hon. Pat:
    Written questions to Kathleen Merrigan.......................   116
    Written questions to James W. Miller.........................   116
Leonard, Joe, Jr.:
    Written response to questions from Hon. Tom Harkin...........   117
    Written response to questions from Hon. Max Baucus...........   118
    Written response to questions from Hon. Charles E. Grassley..   118
Merrigan, Kathleen A.:
    Written response to questions from Hon. Tom Harkin...........   120
    Written response to questions from Hon. Saxby Chambliss......   122
    Written response to questions from Hon. Max Baucus...........   123
    Written response to questions from Hon. Thad Cochran.........   124
    Written response to questions from Hon. Pat Roberts..........   126
    Written response to questions from Hon. Charles E. Grassley..   127
Miller, James W.:
    Written response to questions from Hon. Tom Harkin...........   129
    Written response to questions from Hon. Saxby Chambliss......   130
    Written response to questions from Hon. Max Baucus...........   130
    Written response to questions from Hon. Thad Cochran.........   132
    Written response to questions from Hon. Pat Roberts..........   132
    Written response to questions from Hon. Charles E. Grassley..   133
Additional Material(s) Submitted for the Record:
    Various organizations, letters of endorsement for Joe 
      Leonard, Jr................................................   136
    Various organizations, letters of endorsement for Kathleen A. 
      Merrigan...................................................   139
    Various organizations, letters of endorsement for James W. 
      Miller.....................................................   185


 
                  HEARING TO CONSIDER THE NOMINATIONS
                    OF JOE LEONARD JR., KATHLEEN A.
                     MERRIGAN, AND JAMES W. MILLER
                 TO THE U.S. DEPARTMENT OF AGRICULTURE

                              ----------                              


                        Wednesday, April 1, 2009

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:02 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Leahy, Conrad, Casey, Chambliss, 
Cochran, Roberts, and Thune.

 STATEMENT OF HON. TOM HARKIN, U.S. SENATOR FROM THE STATE OF 
   IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition, and Forestry will come to order.
    We have a joyous occasion today. We are here to do some 
really good things this afternoon, and that is to hopefully get 
through three eminently well-qualified individuals to carry on 
the responsibilities and functions of the Department of 
Agriculture.
    First would be the Deputy Secretary of Agriculture. This is 
a very demanding role, spanning the entirety of USDA's 
responsibilities. The person in that role must, of course, be 
capable of carrying out the job and also understand the range 
of food, agriculture, and rural issues and be committed to 
serving all of the people who rely on the Department of 
Agriculture. Kathleen Merrigan is certainly no stranger to this 
Committee. We welcome her today, and I will yield shortly to 
Senator Leahy for purposes of introduction.
    The Under Secretary of Agriculture for Farm and Foreign 
Agricultural Services, responsible for essential functions of 
USDA, the farm commodity and income support programs, farm 
loans, crop insurance, disaster assistance, the Conservation 
Reserve Program, commodity operations, also include the 
overseas marketing information and development programs, 
including export assistance and foreign food assistance. Jim 
Miller has an extensive and strong background and experience 
from a working farmer on to very capable work in helping us 
craft the Food, Conservation, and Energy Act of 2008. And, 
again, we congratulate him on his nomination to this key Under 
Secretary position, and I will hold the record open at this 
point for introductions by Senator Conrad, but he is chairing 
the budget debate on the floor right now.
    The Assistant Secretary for Civil Rights may well be the 
toughest job anyone will take on at the Department. Stretching 
back many decades, USDA has run up a string of documented 
failures, abject failures, in respecting civil rights of both 
the employees and USDA customers. The most visible 
manifestation of these failures is the consent decree in the 
Pigford v. Glickman case under which USDA has thus far paid out 
nearly $1 billion to settle racial discrimination claims of 
African American farmers.
    The Pigford v. Glickman consent decree by no means cures 
all of the sad record of civil rights and neglect in that 
Department. Native Americans, Hispanic female farmers, are all 
currently suing the Department for program discrimination. 
African American farmers continue to file and to seek to settle 
cases involved in the Pigford litigation. And USDA has a vast 
backlog of race discrimination claims from employees as well.
    So we congratulate and welcome to the Committee Dr. Joe 
Leonard, Jr., as nominee for Assistant Secretary for Civil 
Rights. He has a long history of working in key roles in civil 
rights issues. We look to him to draw upon that experience to 
turn around a very troubling civil rights situation at USDA.
    Again, I will hold open the record at this point for a more 
formal introduction by Congresswoman Kilpatrick from Michigan, 
who I understand is on the floor at this time.
    I will also hold the record open at this time for an 
opening statement by our Ranking Member, Senator Chambliss.
    Before I turn to Senator Leahy, I have an obligation to ask 
you all to rise and take an oath. If you would please raise 
your right hand, do you swear to tell the truth, the whole 
truth, and nothing but the truth?
    Ms. Merrigan. I do.
    Mr. Miller. I do.
    Mr. Leonard. I do.
    Chairman Harkin. Second, do you agree--you can lower your 
hands, but do you agree that, if confirmed, you will appear 
before any duly constituted member of the Congress if asked? 
Dr. Merrigan?
    Mr. Miller. Yes, I do.
    Chairman Harkin. Dr. Leonard?
    Mr. Leonard. Yes.
    Chairman Harkin. Jim Miller?
    Mr. Miller. I do.
    Chairman Harkin. Thank you very much. Please be seated.
    I just want everyone to know that the Leader has informed 
us that we will start voting at 3 o'clock, and there will be a 
long series of votes, so it will not be the kind of thing where 
we can go and come back. And so we are going to try to conduct 
this and finish by 3 o'clock.
    With that, I will yield to our former distinguished 
Chairman of the Committee, Senator Leahy.

STATEMENT OF HON. PATRICK J. LEAHY, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you very much, Mr. Chairman, and thank 
you for the opportunity to make a couple comments.
    First off, you have three excellent people here in Dr. 
Merrigan, Dr. Leonard, and Mr. Miller, and I can assure you all 
three will have my support, both in the Committee and on the 
floor. And it is nothing against Dr. Leonard or Mr. Miller if I 
refer to Dr. Merrigan, who used to work for me on the Committee 
of Agriculture and has been a great friend throughout both to 
my wife and myself. She was my senior adviser in science and 
technology issues. She worked on a wide range of things--the 
Organic Foods Production Act, developing international 
pesticide legislation, the emerging field of biotechnology. I 
have relied on her both as Chairman and as Ranking Member.
    She had firsthand knowledge of the inner workings of the 
Department of Agriculture. She was Administrator of the 
Agriculture Marketing Service, a $1.2 billion agency, over 
10,000 employees, oversaw food grading and certification and 
research promotion programs. Most recently, she has spent the 
past 7 years at Tufts educating the future leaders in 
agricultural policy, has a long and impressive resume. She 
understands rural America. She understands all the various- -I 
will not say much more if we are going to have----
    [Laughter.]
    Senator Leahy. I do not know if this is some kind of a 
thing. I will put the full statement in the record, and just 
have it noted for the record that the lights dimmed briefly. I 
do not know if it is a sign from above, but, Kathy, I am so 
happy you are here. I am so happy your husband and your two 
absolutely wonderful children are here, and I congratulate you.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Leahy.
    I yield to Senator Cochran for a statement.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much. People 
think we are operating in the dark up here sometimes, and they 
are right.
    Well, I am glad to join you and other colleagues on the 
Committee in welcoming the nominees to the Committee. We 
appreciate your willingness to serve at high and important 
positions of responsibility at the Department of Agriculture, 
and we look forward to working with you as you assume these 
duties.
    I have a statement that I would like to have printed in the 
record, Mr. Chairman. Otherwise, we look forward to your 
testimony.
    Chairman Harkin. Thank you very much. Without objection.
    [The prepared statement of Hon. Thad Cochran can be found 
on page 30 in the appendix.]
    Chairman Harkin. This is the order in which we will 
proceed: Dr. Merrigan, Dr. Leonard, then Mr. Miller.
    Dr. Merrigan, again, I just want to join in welcoming you 
back to the Committee in this capacity. And as I said, these 
are joyous occasions, and if you have family members with you, 
I would appreciate it if you would introduce them, and maybe 
they could stand and be recognized.
    Ms. Merrigan. Senator Harkin, thank you. I have with me my 
husband, Michael Selmi; and my children, Fiona and Seamus 
Selmi.
    Chairman Harkin. Very good. Welcome. Glad to have you here.
    [Applause.]
    Chairman Harkin. Seamus? And who is the other one?
    Ms. Merrigan. Fiona. My husband is Italian. They have his 
last name. And so my people needed to be represented.
    [Laughter.]
    Chairman Harkin. Very good. Welcome.
    I will say this at the outset: All of your statements will 
be made a part of the record in their entirety. If you would 
want to sum them up, we would be most appreciative. And there 
go the lights again. What is happening here, anyway?
    Ms. Merrigan. It has something to do with April Fool's, I 
guess.
    Senator Cochran. It is automatic. Maybe we are going to 
have an automatic committee.
    Chairman Harkin. Can someone----
    Senator Cochran. We will not even have to show up.
    Chairman Harkin. Oh, man.
    [Laughter.]
    Chairman Harkin. It is one way or the other. It is all or 
nothing around here.
    Please go ahead, Dr. Merrigan.

  STATEMENT OF KATHLEEN A. MERRIGAN, OF MASSACHUSETTS, TO BE 
        DEPUTY SECRETARY, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Merrigan. Thank you. Mr. Chairman, members of the 
Committee, it is a great honor to have been nominated by 
President Obama to the position of Deputy Secretary. I am 
honored by Secretary Vilsack's confidence in me and his 
invitation to join him in leading the People's Department.
    I appreciate Senator Leahy's generous introduction. He has 
been an inspirational leader, a wonderful boss, and a true 
friend to me and my family over the years.
    Mr. Chairman, thank you for a very warm, kind introduction 
in a return to the flock here. I have recognized my husband and 
my children who accompany me here today.
    I am grateful for the opportunity and privilege to appear 
before you, to return home to the Committee where I worked with 
many of you, and your able staff, to craft legislation and 
oversee USDA operations. During my 6 years as a staff member 
for this Committee, I came to understand firsthand how 
essential it is for members of the Committee to receive timely, 
robust, and honest assessments from the administration on 
issues before the Committee. For this reason, I want to begin 
my testimony pledging that, if confirmed, I will always 
prioritize answering the Committee's questions and calls for 
input. It would be an honor to join you in the common cause of 
improving the lives of all Americans because whether they 
understand it or not, each and every citizen needs U.S. 
agriculture to thrive.
    It was from a distance, in my role as a college professor, 
that I watched as the 2008 farm bill took shape. It is a 
masterful piece of legislation, with its 15 titles, 600 
provisions, and creative new ventures. As someone who cares 
deeply about American agriculture, I am grateful for the hard 
work Committee members and staff devoted over a period of years 
to bring about this historic law.
    During the 1990 farm bill deliberations, I worked to help 
Senator Leahy realize his vision for a national organic food 
standards program, which was included in that omnibus bill. My 
excitement, however, soon turned to frustration once we began 
waiting for the law to be implemented, which took nearly 12 
years. I do not want similar tales to be told about the 2008 
farm bill. I understand that farmers and ranchers need 
certainty. In some areas of the country, farmers have already 
begun or are about to begin planting, and they need to fully 
understand the programs that they will be utilizing. If 
confirmed, I understand that it will be my job to assist the 
Secretary and other leaders of the Department to ensure that 
this law is implemented as Congress intended and as quickly as 
possible.
    The last time I appeared before this distinguished 
Committee 2 years ago, it was during the shaping of the 2008 
farm bill. I testified on ways to improve what is now the 
Conservation Stewardship Program--CSP--a jewel among many 
wonderful USDA programs. What I like about CSP program--your 
program, Mr. Chairman--is that it recognizes farmers as 
environmental stewards and rewards their contributions to 
healthy food, land, water, and wildlife. If confirmed as 
Deputy, one of my priorities will be to communicate the 
important contributions made by farmers in protecting and 
enhancing our natural resources, such as mitigating climate 
change. As Secretary Vilsack has so ably articulated, we must 
harness our research enterprise to find ways to expedite the 
next generation of biofuels, develop new and market-worthy crop 
rotations, and advance the use of agroforestry and biomass 
strategies.
    I teach at a graduate school of nutrition science and 
policy, where understanding the paradox of childhood obesity 
and hunger is central to our mandate. As Administrator of the 
USDA Agricultural Marketing Service, I spearheaded efforts to 
purchase commodities for our national school lunch and 
breakfast programs. If confirmed as Deputy, I will seize the 
opportunity to work with the Committee to assist your efforts 
to reauthorize the Child Nutrition Reauthorization Act this 
year. It is my goal and my passion to improve access and 
delivery of nutritious foods--particularly fresh fruits and 
vegetables--to our Nation's children. It is something we can 
do; it is something we must do.
    I will ask that the rest of my statement be entered into 
the record because I know time is short. I just want to 
conclude, Mr. Chairman, by saying I look forward to this 
opportunity. I stand ready to serve, and I appreciate your kind 
consideration.
    [The prepared statement of Ms. Merrigan can be found on 
page 37 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Merrigan, for 
your testimony and also for all your past help on this 
Committee going back many, many years.
    And now I would like to recognize our distinguished Ranking 
Member, Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Well, thank you, Mr. Chairman, and thank 
you for holding this important hearing to consider the 
nominations of Joe Leonard, Jr., Kathleen Merrigan, and Jim 
Miller for key positions with USDA.
    I would like to welcome each of you to the hearing today 
and certainly am glad you have all your families with you 
there. It is nice to see what great support you have.
    After several years of input and development, the Food, 
Conservation, and Energy Act of 2008 was enacted last summer. A 
tremendous amount of work remains for successful implementation 
of this legislation. Today's hearing is a step toward filling 
important roles at the Department, and we look forward to 
hearing how these nominees will contribute to timely and proper 
implementation.
    It is my pleasure to welcome and congratulate Joe Leonard, 
Jr., as the nominee for Assistant Secretary for Civil Rights at 
USDA. Based on your extensive background and your experience 
with civil rights issues, it is no mystery why you sit here 
today before this Committee.
    USDA is a vast agency that has an impact on the lives of 
every American. In your capacity as the Assistant Secretary for 
Civil Rights, you will be tasked to ensure that all USDA 
customers and employees are able to fully participate in USDA 
programs and employment.
    Indeed, one of the first things you will encounter is the 
ongoing effort at USDA to resolve the many Pigford claims which 
resulted from past USDA actions. Although the 2008 farm bill 
provides an additional $100 million to resolve these cases, it 
also authorized additional claimants. I am hopeful that you 
will be able to resolve these claims as expeditiously as 
possible. And as the former Executive Director of the 
Congressional Black Caucus and the Black Leadership Forum, you 
bring a unique perspective, Mr. Leonard, to these issues and, 
if confirmed, I certainly look forward to working with you to 
bring about a conclusion to this particular issue.
    Ms. Merrigan, I have reviewed your testimony, your written 
articles, as well as statements that you have made, and I 
appreciate your passion and enthusiasm for the things that you 
believe in--organic production, sustainable agriculture, 
agricultural research, and human nutrition. However, as I 
stated to you in person, I do have some concerns that in 
promoting your passion for organic production and sustainable 
agriculture, that you tear down other types of agricultural 
production for those with different points of view.
    For example, you wrote in an article in Nutrition Today 
that ``the production of raw farm products is the stage of food 
production that entails the greatest potential environmental 
damage, water pollution, wildlife destruction, soil erosion, 
loss of biodiversity, and global climate change. It may also 
cover processing, which can entail toxic effluents, water 
pollution, and solid waste.'' And I would simply remind you 
that farmers and ranchers are the best environmentalists that 
we have in America because they make their living off of the 
land and they do everything they can to seek to protect it.
    I know that perhaps if you had a chance to clarify this 
statement--and you will have that opportunity today--you might 
say it a little differently or more moderately.
    I think it is the lack of balance in your views and your 
writings that concerns me the most. No one denies there are 
environmental challenges with production agriculture. But how 
fortunate we are as Americans to have the financial resources, 
ability, and commitment to ensure we have an agricultural 
sector that produces an enormous variety of safe and abundant 
food in an environmentally friendly manner.
    In 2003, you wrote in an open letter to Senators that was 
published in Catholic Rural Life Magazine, stating that, and I 
quote: ``We must preserve a diverse farm base.'' While you were 
not necessarily referring to agriculture generally, you 
unintentionally make my case. There are 922 million acres of 
farmland in this country. We have so many different crops, 
climatic conditions, soil types, cultural practices, and 
producers that there is no logic to believing that any one 
method of production is better than another. Within our system 
of government, there is not one of us that gets to decide what 
constitutes a diverse farm base or how agricultural products 
should be produced.
    These issues that you are passionate about are very 
important, but the Department of Agriculture handles a myriad 
of important issues. As many arguments as there are for organic 
production, there are just as many arguments against it. So 
please keep a special place in your heart for organic 
production. Don't let that be diminished. But, also, be open to 
other types of production which gives all farmers options. As 
Deputy Secretary at USDA, your job will not be to focus on your 
personal interests or promote one type of agriculture at the 
expense of the other. Your job will be to help run the 
Department and its programs so that they work for all producers 
and consumers, all Americans.
    I think you know this, and I hope you plan to implement 
this, and if confirmed, I look forward to working with you on 
behalf of all of agriculture.
    And to my good friend Jim Miller, it is a pleasure to 
welcome you to the Committee in this capacity, Jim. As to 
filling the need for Under Secretary of Agriculture for Farm 
and Foreign Agricultural Services, you bring a lot of 
experience, knowledge, and common sense to the Committee, and 
we are glad that you are willing to come to the Department and 
continue to be a public servant in this capacity. Given your 
hands-on farm experience, your leadership roles in the 
agriculture community, and your advisory role to my dear friend 
Kent Conrad, we have great expectations for you.
    In reviewing materials provided to the Committee, I learned 
that Jim was President of the National Association of Wheat 
Growers during the 1980's, a very challenging time for 
agriculture. In news articles provided, I was pleased to read 
about the confidence that he maintained in the American farmer 
through those difficult times, and certainly they were 
difficult.
    My experience with Jim Miller is that he is a hard worker. 
He is a fair-minded individual. He is certainly blessed with 
intellect about agricultural policy, and during the farm bill 
discussions and debate last year, there is nobody that I had 
more confidence in or felt was blessed with more integrity than 
Jim Miller, and you are to be commended for that.
    Mr. Chairman, we certainly face challenges in agriculture 
today--thankfully, not to the degree of the 1980's. Through 
these uncertain times, we must support the American farmer and 
rancher. They supply this Nation, and many others, a safe, 
abundant, and affordable food and fiber supply. The Congress 
and the U.S. Department of Agriculture must stand by our 
agricultural producers and provide them an environment in which 
they can prosper. Decisions related to the budget, commodity 
policy, risk management, trade, and conservation policy all 
play a role in creating such an environment.
    Congratulations again to each of you as nominees, and I 
look forward to visiting with you today.
    Chairman Harkin. Thank you very much, Senator Chambliss.
    I was just getting ready to introduce Dr. Leonard myself, 
but we are joined by our distinguished colleague from the House 
side, the Honorable Congresswoman Kilpatrick from Detroit, who 
has come here for the purpose of an introduction.
    We welcome you to the Committee, and we now yield to you 
for the purpose of introducing Dr. Leonard.

 STATEMENT OF HON. CAROLYN C. KILPATRICK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Kilpatrick. Thank you, Mr. Chairman and Ranking Member 
and members of the Committee. Forgive our tardiness. As always 
happens, the bells ring, we have five votes, and I am yielding 
two of them to be here with my good friend and assistant, who 
is an outstanding gentleman.
    I come today to recommend and to highly support Dr. Joe 
Leonard to be the next Assistant Secretary for Civil Rights 
within the United States Department of Agriculture. As 
Chairperson of the Congressional Black Caucus in the 110th 
session, Dr. Leonard served as the best Executive Director I 
have worked with in my 31 years of public service--tenacious, 
intelligent, coalition builder, and one who understands the 
body politic as well as why we build and must have a strong 
Department of Agriculture.
    Dr. Leonard hails from the city of Austin, Texas, is a 
renowned author, historian. He also lived some part of his time 
in New Orleans, and as Chairperson of the Congressional Black 
Caucus in the 110th, Dr. Leonard helped me steer our 43 members 
from 26 States. We represented over 300 million Americans in 
those States, and he to a person was the reason why our 110th 
session was so important.
    It is important that we come to today, and I want to 
commend the President's administration, President Obama's 
administration for nominating such a fine gentleman. I have 
worked with him. Our caucus highly regards you, sir. We will 
miss you tremendously. We know of your civil rights history, 
your Ph.D. from Howard University, your under grad, well 
learned, historian on his feet, Chairman Harkin, and he will be 
an asset to these United States of America.
    It is my honor and privilege to recommend highly and to put 
forward the name of Dr. Joe Leonard as Assistant Secretary for 
the Department of Civil Rights in the Department of 
Agriculture. He will serve our country tremendously.
    Thank you very much.
    Chairman Harkin. Well, thank you very much, Congresswoman.
    Dr. Leonard, I notice that you have family here too, and 
would you please introduce your family members who are here? 
Push the button.
    Mr. Leonard. Seated to my left is, if you don't mind 
standing up, Cole Edward Leonard, and my wife of 15 years, Dr. 
Natasha Cole-Leonard.
    [Applause.]
    Chairman Harkin. Welcome to the Committee. As I said, this 
is a great day for all of us, and especially for all the 
families who are here.
    I just wanted to add, Congresswoman, that reading over Dr. 
Leonard's bio and stuff, I read that his great-great- great-
grandfather fought at the Alamo.
    Mr. Leonard. That is correct.
    Chairman Harkin. I hope those genes are passed on.
    [Laughter.]
    Chairman Harkin. You are going to need that at the 
Department of Agriculture, I think.
    Mr. Leonard. They have been.
    Chairman Harkin. Well, Dr. Leonard, welcome very much. Your 
statement will be made a part of the record in its entirety, 
and please proceed.

STATEMENT OF JOE LEONARD, JR., OF THE DISTRICT OF COLUMBIA, TO 
    BE UNDER SECRETARY FOR CIVIL RIGHTS, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Leonard. Thank you, Chairman Harkin, Ranking?
    Member Chambliss, members of the Senate Committee on 
Agriculture, Nutrition, and Forestry. It is an honor to appear 
before you today. I would like to thank Chairman Harkin and 
Ranking Member Chambliss for their longstanding commitment and 
dedication to the principles of civil rights while serving on 
this Committee. I would also like to thank Representative 
Carolyn Cheeks Kilpatrick for her warm introduction and to 
indicate to her what an honor and privilege it has been to work 
with her during the 110th Congress and as a senior advisor on 
your staff. Thank you very much, Congresswoman.
    I would also like to thank the Executive Director of the 
Black Leadership Forum who is here for his friendship, long-
time friendship, and that is Mr. Gary Flowers.
    It is a sincere honor and privilege to be selected by 
President Obama to serve as Assistant Secretary for Civil 
Rights at the United States Department of Agriculture during 
this critical period in American history. As a historian, I am 
mindful of the challenges that have been associated with this 
office. USDA has recorded a turbulent history in civil rights 
since the establishment of the Office of Equal Employment in 
1971. Initially, the total civil rights program experienced an 
almost revolving door situation with its leadership, and for 
several years it averaged one director a year. Furthermore, 
unfortunately, the allocation of resources--both human and 
monetary--did not match its needs.
    The suspension of investigations and compliance reviews in 
the early 1980's and the associated reduction in the budget 
left a crippling legacy. The establishment of the Office of the 
Assistant Secretary for Civil Rights in 2003, through language 
included in the 2002 farm bill by this Committee, was a step in 
the right direction, but the challenges of addressing a 
ballooning inventory of complaints and complex class action 
complaints has not allowed it to fully address the many 
functions under its jurisdiction.
    The Department has also been confronted with complex legal 
issues related to program discrimination complaints. USDA must 
acknowledge its past mistakes and discrimination, correct its 
errors, and move forward into a new era of transparency and 
accountability that provides equal employment, equal access, 
and equal treatment to all employees and customers.
    It is important for me right now actually, before I get 
into the rest of my statement, to thank my parents, Joe and 
Shirley Leonard, for their support, sacrifice, and teaching of 
what we refer to in my family as ``stickability.'' It is also 
very important, as I look at this august body, for me to invoke 
the names of past Leonard men--Jose, Levy, Charles, Dave, and 
Joe Sr.--all of whom endured slavery or segregation so I might 
have better opportunities today. I am confident that, if 
confirmed, I, along with the staff that Secretary Vilsack is 
putting together at the Department, will be able to tackle 
these longstanding challenges and implement the requirements of 
the 2008 farm bill as you intended.
    Mr. Chairman, Ranking Member Chambliss, and members of the 
Committee, if confirmed, I will do my best of my abilities to 
reinvigorate the Office of Civil Rights. Specifically, I will:
    Initiate preparations for the construction of a single 
accurate data base for customer complaints and a separate data 
base for employee complaints;
    Take immediate steps to analyze this information to ensure 
that the provisions of the farm bill on suspension of 
foreclosures are being properly implemented;
    Work to streamline the process for filing complaints for 
USDA customers;
    Work within USDA to employ full-time investigators, 
encourage onsite investigations, and hire staff qualified to 
support and assist the investigators and adjudicators in 
processing USDA claims;
    Conduct analysis at the points of service delivery to 
pinpoint barriers to providing equitable access and treatment, 
and develop solutions to overcome these barriers, including 
providing tools to our customers to achieve intensive 
grassroots effects;
    Increase alternative dispute resolution and mediation 
efforts to resolve complaints at the local and State level;
    And review the overall organization of the Office of the 
Assistant Secretary of Civil Rights to ensure optimal 
information flow, cooperation, coordination.
    When Secretary Vilsack was before you, he reaffirmed his 
commitment to resolving longstanding civil rights claims at 
USDA. I am equally committed to that end and hope that my 
career is a testament to that.
    This Committee plays a vital role in overseeing the 
operations of USDA and the Office of Civil Rights, and, if 
confirmed, I look forward to working with you to ensure that 
you and your staff are fully informed of the work of this 
office.
    Last, I conclude by expressing my gratitude to President 
Obama for the confidence he has placed in me to take on this 
honorable responsibility and to you Mr. Chairman and Ranking 
Member Chambliss and the members of the Committee for the 
opportunity to appear before you today.
    Thank you.
    [The prepared statement of Mr. Leonard can be found on page 
34 in the appendix.]
    Chairman Harkin. Dr. Leonard, thank you very much for an 
excellent statement, and right on time.
    I would yield to my great friend and distinguished Chairman 
of the Budget Committee and a senior member of the Agriculture 
Committee for the purposes of introducing Jim Miller.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM THE STATE OF 
                          NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman, and this really is 
a proud moment to be here to strongly support the nomination of 
Jim Miller to be USDA Under Secretary for Farm and Foreign 
Agricultural Services.
    I think everybody on this Committee knows Jim very well 
already. He was my lead negotiator during the farm bill 
negotiation, served on the Budget Committee on my staff from 
2004 to 2008, did an absolutely superb job in every capacity--
no more so than during the difficult farm bill negotiations. I 
think every member grew to respect his knowledge. He has truly 
an encyclopedic knowledge of agriculture policy.
    In addition, he knows the numbers. Jim has a remarkable 
gift for not only understanding the substance of policy, but of 
also knowing the numbers. In fact, we often used his 
projections while we were awaiting more formal scoring because 
we knew Jim's numbers were right on track.
    In addition to that, there are very few people I have 
encountered in my life that have a greater character or quality 
than Jim Miller. He is just an exceptional person, able to get 
along with virtually everyone, extremely hard- working, and 
somebody that truly cares about farm and ranch families across 
America. And he does not just care about the ones in North 
Dakota or the ones in Washington State where he has farming 
operations. He cares about farm and ranch families all across 
America, and precisely the kind of person that we need in this 
posting. I am so pleased that President Obama recognized Jim 
Miller for this position.
    I just want to say to my colleagues, I strongly support Jim 
Miller for this position. I would support Jim Miller for any 
position. He is simply the best.
    I am delighted to be here. Thank you, Mr. Chairman, for 
this time.
    Chairman Harkin. Thank you very much, Senator Conrad.
    I will add a couple of things. I had suggested to Secretary 
Vilsack, I said, ``Well, Jim is going to come in this position, 
but anytime you got any problems with your budget, go see 
Jim.'' And I hope he does when he is working out the numbers 
and everything.
    I might also add just one other thing that I am very proud 
of Jim Miller about, and that is, all the work that you have 
done with the Farmers Union for all these years. Great farm 
organization, one that I have been very close to for all the 
years, 35 years, not this one, but the Ag Committees in the 
House and the Senate. And so I appreciate all the leadership 
you have provided to the National Farmers Union for so many 
years.
    So welcome and, again, you have family here, and since this 
is a great day for you and your family, could you introduce 
your family to us, Jim?
    Mr. Miller. Thank you, Mr. Chairman. It is a pleasure to be 
back at the agriculture Committee. I would like to introduce my 
family.
    Next week, my wife, Sandy, and I will be celebrating our 
35th wedding anniversary.
    Chairman Harkin. Congratulations.
    Mr. Miller. So I would like to Sandy to stand up. 
Obviously, she has a great deal of patience and understanding.
    [Applause.]
    Mr. Miller. Also, my oldest son, Matt, and his wife, 
Alison, are here; as well as my youngest son, Adam, and his 
wife, Amber, who came in from Phoenix to participate.
    [Applause.]
    Chairman Harkin. Oh, please stand up.
    Mr. Miller. I am certainly happy they were able to be here 
today.
    Chairman Harkin. Oh, that is wonderful. That is wonderful.
    Well, again, your statement will be made a part of the 
record in its entirety, and please proceed as you desire, Jim.

    STATEMENT OF JAMES W. MILLER, OF VIRGINIA, TO BE UNDER 
  SECRETARY FOR FARM AND FOREIGN AGRICULTURAL SERVICES, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Miller. Thank you, Chairman Harkin, Ranking Member.
    Chambliss, and members of the Senate Committee on 
Agriculture, Nutrition, and Forestry. It is a real pleasure to 
be able to appear before you today, and in particular, I want 
to thank my friend and mentor Senator Kent Conrad for his kind 
introduction and just to say how much I truly enjoyed working 
for him as a member of his Senate Budget Committee staff for 4 
years. It was just a wonderful experience, and, Senator, again, 
thank you very much for being here. It means a lot to me.
    Mr. Chairman, it is truly an honor and a privilege to be 
nominated by President Obama to serve as Under Secretary for 
Farm and Foreign Agricultural Services at the Department of 
Agriculture during this very critical period. I am very mindful 
of the responsibilities of this position and the importance of 
its mission areas to our farmers, ranchers, and communities, as 
well as to the American taxpayer and our consumers, both here 
and abroad.
    The mission areas for the Under Secretary position for 
which I have been nominated include the Farm Service Agency, 
the Foreign Agriculture Service, and the Risk Management 
Agency. Each of these agencies is staffed with professionals 
who work very hard to provide the highest level of service to 
their customers and to their stakeholders.
    If confirmed, it will be a great honor to work shoulder-to-
shoulder with these fine public servants to carry out the 
policies and responsibilities that the Congress and the Obama 
administration have identified for each of these agencies.
    Today the American people are faced with historic economic 
challenges. Farmers, ranchers, and rural communities are not 
immune from this crisis. Tremendous uncertainty exists 
throughout production agriculture because of weaker commodity 
prices, high input costs, and increased difficulties when it 
comes to financing farm operations. And, as is always the case, 
farmers and ranchers must also cope with the weather.
    I am under no illusion about the difficulties our producers 
are facing this year. Furthermore, I recognize that USDA must 
quickly make up ground in implementing the 2008 farm bill to 
ensure the safety net that was promised in the legislation is, 
in fact, delivered.
    I am keenly aware of the extraordinary effort made by this 
Committee last year to produce a historic farm bill. If 
confirmed, I will regularly consult with members of the Senate 
Agriculture Committee and your colleagues in the House to move 
as quickly as possible to implement the many provisions of the 
Food, Conservation, and Energy Act of 2008 as well as the 
provisions of the American Recovery and Reinvestment Act that 
fall within the FSA, FAS, and RMA mission areas.
    If confirmed, I pledge to work with all my energy to 
implement these programs in a way that is consistent with the 
intent of Congress and fair and equitable to those who 
participate in these programs.
    Specifically, I will:
    Conclude the departmental review of the 2008 farm bill 
regulations promulgated by the previous administration and 
press to issue the regulations pertaining to the 2009 commodity 
programs as well as other important provisions such as the 
Conservation Reserve Program and the Biomass Crop Assistance 
Program as soon as is practical;
    I will ascertain the status and expedite the process of 
developing the regulations to implement the disaster provisions 
of the 2008 farm bill as amended by subsequent legislation;
    Examine the tools available to help alleviate the crisis 
conditions that exist within specific sectors of production 
agriculture such as dairy;
    Review the public comments and initiate the process to 
promulgate the rules pertaining to the payment limitation 
provisions for the 2010 commodity program year;
    Work to ensure the agriculture export programs supported by 
the Foreign Agriculture Service continue to meet the needs of 
their stakeholders and to expand agriculture sales abroad and 
help alleviate hunger overseas;
    I will implement the modifications to the Federal crop 
insurance program as prescribed by the 2008 farm bill and 
initiate preparations for the upcoming round of negotiations of 
the Standard Reinsurance Agreement between USDA and its private 
sector insurance partners.
    I also pledge to work within the Department and with 
Congress to develop a realistic and workable plan to modernize 
the information technology at USDA.
    In addition, Mr. Chairman, I want to emphasize my 
commitment to a statement Secretary Vilsack made during his 
confirmation hearing. The Secretary stated he would work hard 
to resolve outstanding civil rights claims in program and 
employment practices and would not tolerate discrimination in 
any form at USDA. I, too, am committed to turning this page at 
the Department. Discrimination in any form will not be 
tolerated in the agencies over which I have responsibility.
    Let me conclude by once again expressing my gratitude to 
President Obama for the faith and confidence he has placed in 
me to take on this important responsibility and to you, Mr. 
Chairman, Senator Chambliss, and members of the Committee, for 
the opportunity to appear here today.
    Thank you.
    [The prepared statement of Mr. Miller can be found on page 
40 in the appendix.]
    Chairman Harkin. Thank you very much, Jim.
    Well, we will begin a round of questions here, just 5 
minutes each. We have some time here before 3 o'clock.
    Dr. Leonard, if I might just start my round of questioning 
with you, at his confirmation hearing Secretary Vilsack 
promised this Committee that he would resolve once and for all, 
all the U.S. Department of Agriculture's longstanding problems 
with discrimination within the agency, and here is what he 
said, and I quote: ``If I am confirmed, the message will be 
clear. Discrimination in any form will not be tolerated in this 
Department.''
    Then he made a commitment to clear the backlog civil rights 
complaints leveled against the agency. In addition, the 
Government Accountability Office, GAO, after conducting a 
careful investigation of USDA's history of discrimination, 
recommended that the agency immediately ``obtain an expert, 
independent, and objective legal examination of the basis, 
quality, and adequacy of USDA's investigation of and decisions 
on civil rights complaints along with suggestions for 
improvement.'' That is from GAO.
    Do you know whether the agency has followed the GAO's 
recommendations and hired such a legal expert? Or do you know 
if they are going to do so shortly?
    Mr. Leonard. The first conversation that I had with 
Secretary Vilsack was about Pigford and settling Pigford.
    The second conversation that I had with him was regarding 
the back-up, the large number of cases. The GAO report also had 
three data bases. There is no accurate number on how many 
complaints there are. I am confident, especially given--I saw 
that report to the Committee. I also saw articles of interviews 
that he did with USA Today and the National Journal very early 
on. I am confident that he will do whatever is necessary in the 
stalemate of complaints. I am very confident.
    To be frank with you, I had another option. I wanted to 
come here and work with him in settling these cases.
    Chairman Harkin. I appreciate that. Again, having been on 
the House and Senate committees all these years, when all of 
this started coming to light--oh, gee, this has been over a 
dozen years ago, almost 15 years ago now--and hoping that 
things would change and happen, but it seems to me that 
whenever it was done internally, it never got done.
    And so, again, that is why we asked the GAO to do this 
study, and the GAO has basically said that they should obtain 
an independent expert, objective analysis of all of this, along 
with suggestions for what they do. And I would just ask you: Do 
you agree with GAO's recommendation that the Department's 
persistent failure to resolve its history of discrimination 
against its employees and program participants has created a 
need for the Department to immediate obtain an independent and 
objective legal examination?
    Mr. Leonard. Well, without having talked to Secretary 
Vilsack, if confirmed, I am sure that he will do all that is 
necessary to respond to the GAO report. I am looking forward to 
working with people like Lloyd Wright in order to find these 
numbers. Those individuals have not been put in play, I think, 
because if he would have worked on this long enough, there 
would be a good number and the GAO report would not be needed. 
But I believe that, if confirmed, working with individuals, 
with the stuff of these individuals that are there that I have 
been able to meet the last week, I believe--and possibly 
working with an outside entity, I think that we will not have 
to revisit this in the next farm bill. And I welcome any 
additional resources that you would like to assist in giving us 
in order to--so that you will not have to revisit. You have 
been doing this a long time, and I can understand anything--
another individual coming to you saying, ``Give me time.'' So I 
welcome any additional resources so that we can put this ugly 
chapter to bed.
    Chairman Harkin. I appreciate that. I appreciate that. 
Well, it is just something that we just cannot--we just 
continue to kick the ball down the field. We cannot kick it 
down anymore. And Secretary Vilsack I know feels very strongly 
that way also.
    Well, my time is up. I just want to ask you, Jim, about the 
computer system, about RMA, but I will do that on my second 
round.
    I will yield now to our distinguished Ranking Member 
Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Dr. Leonard, as you know, USDA is an extremely large 
governmental Department with a number of agencies and offices, 
well over 100,000 employees. The Office of Assistant Secretary 
for Civil Rights mission is, and I quote, ``to provide 
leadership and direction for the fair and equitable treatment 
of all USDA customers and employees while ensuring the delivery 
of quality programs and enforcement of civil rights.''
    How does your previous work experience prepare you for the 
responsibility of carrying out this mission in such a large 
organization?
    Mr. Leonard. It is funny because, you know, I was talking 
to my wife earlier today, and it seems as though my entire life 
has led me to this moment. I remember going to a--and listening 
to your earlier comments, I remember I was coaching a track 
team in New Orleans, Louisiana, and no one wanted to coach this 
track team. Ironically, the social secretary's father was 
athletic director for the district, and he said, ``I will give 
you three teams. You can choose either one. Neither one of them 
have done much.'' I chose a team. Within 5 years, we had 
everyone in state every year.
    Rainbow/PUSH is a hard place to work. Reverend Jackson will 
push you. It doesn't sleep. I did that for 4 years.
    I went to the Black Leadership Forum, and the Black 
Leadership Forum had some debt. Paid off the debt in 2-1/2 
years, and it is still a functioning organization. No one 
really wanted to go there.
    The Congressional Black Caucus, we have 43 bosses. It is an 
interesting place to work. And many people would heed that 
warning as well.
    And I listened to you all earlier. The only thing I could 
tell you, Congressman, is that you have to have a lot of 
dedication and ``stickability'' there, I mentioned in my 
earlier comments, and that is my family's version of discipline 
and stick-to-it-tiveness and discipline and diligence and 
trying your best in everything you do. And I have been blessed 
through the years to have people--I looked at the farm bill. 
You already are doing it. I have to implement what you all have 
done in 2002 and the adjustments that you made in the 2002 farm 
bill, and then the additional adjustments you made in 2008.
    The field is laid. I simply have to come in, preferably 
get, you know--if selected--come in and put the effort and talk 
to you all and speak to you all and get your advice and 
guidance, because you have been doing this much longer than I 
have. But the passion has to be there, the passion to correct 
change, and the passion Secretary Vilsack showed in stopping 
what is going on is very attractive.
    So I have, I believe, in addition, I think that I have 
everything that is needed. I have the stuff that is needed to 
do this because, I mean, this is a hard job. I think the team 
that Secretary Vilsack is putting together, listening to Mr. 
Miller's statement, is ready to help. I think the alternative 
dispute resolutions, I think the beginning farmers program, I 
think the technical assistance, I think the idea that Mr. 
Miller comes in and wants to find a set of numbers--if he is 
that good on the numbers, I need him to work on some numbers 
for me. I mean, this sort of team that you are building 
together to win, to go back to my track analogy.
    So it is a lot of moving parts. Yes, it is. And you have to 
get managers in those moving parts that have the same degree of 
passion ``stickability,'' discipline, and is on the same sheet 
of music as Secretary Vilsack, the coach. So we will--it is not 
any one person that caused this problem, and it will not be any 
one that succeeds in it. But all of us working together, we 
will get it done.
    Senator Chambliss. Thank you. You have got a lot of 
challenges out there, but your background does give you a lot 
of experience to rely on to address those challenges.
    Dr. Merrigan, I want to give you an opportunity to talk for 
a minute about your passion that I referred to, as well as your 
position on production agriculture. And I will not ask it in 
the form of a question. You and I have talked about this before 
together, but I want to give you an opportunity for the record 
to state your position, not just on sustainable agriculture but 
on production agriculture.
    Ms. Merrigan. Thank you for the opportunity, Senator 
Chambliss, and I thought back to our meeting, and I realize one 
of the things I want to tell you is I grew up in rural America. 
There are rural parts of Massachusetts where people actually 
have to drive an hour to go to the grocery store. I grew up in 
a home next to a farm--a farm that was lost to development, 
housing development, and to commercial enterprises. I grew up 
in a community next door to a town where farmers lost their 
water supplies because of groundwater contamination from 
tobacco, cigar-wrap tobacco up where we are at, tobacco growing 
and potato growing.
    And so being in rural America, American agriculture is a 
part of the fabric of who I am, and that is where I come from. 
While I did not grow up on a farm, it was part of my community. 
And coming to the Deputy job, I would see it as a great 
opportunity to represent all kinds of agriculture.
    As you have said, organic is a small slice of the pie, 2, 
maybe 3 percent of overall production in American agriculture, 
a very exciting enterprise that has attracted young new 
farmers, and we certainly need new farmers because the aging 
population in the farm communities is of concern to all of us. 
But there is also the important disappearing middle, those 
farmers out there who are not making it, and I want to help and 
find ways to encourage them, and some of that is going to be 
through important conservation programs, to give them the 
assistance they need. EQIP, CRP, CSP--those are very, very 
important programs, and they help farmers. And I think that 
there are ideas that I can provide and help in that way.
    You know, 20 percent of producers are providing 80 percent 
of the food. I understand that reality, Senator Chambliss, and 
when I was AMS Administrator, I worked on the organic program, 
but I also worked on milk marketing orders and check-off 
programs and commodity purchases of all sorts. And so I would 
like my history before the Committee to be not just those 
articles, which are out there and they are provocative--I have 
always been a provocateur; that is part of my personality--but 
also some of the hard that I have done for a range of 
agricultural interests.
    Senator Chambliss. OK.
    Jim, you have pretty well, I think, answered all the 
questions that I might have for you over the years that I have 
known you and had the opportunity to work with you. And I was 
very pleased to hear you say that right out of the box, you are 
going to look toward implementation of the farm bill, 
particularly with the regulations that were forthcoming in the 
previous administration that have not been totally reviewed to 
this point and need to be reviewed and need to be put in place.
    The Chairman and I have had conversations with the 
Department about that very issue, and it is important that we 
get the farm bill implemented. Gosh, we are here already in the 
second year of that 2008 farm bill. That is hard to believe 
after all we went through last year, but you know the issues, 
and even though you come from a part of the world where you do 
not grow peanuts and cotton, as we do in the Southeast, you are 
very familiar and knowledgeable about those crops. And we have 
got some issues there particularly with respect to posted price 
on peanuts that I look forward to dialoguing with you about 
early, because it is a critical issue that is kind of unique to 
peanut farmers.
    So, again, thanks to all of you for your willingness to 
serve, and we look forward upon confirmation to working with 
you.
    Chairman Harkin. Thank you very much, Senator Chambliss.
    First of all, Dr. Leonard, before I finish with your series 
here, first of all, you mentioned that you are going to rely on 
Lloyd Wright, you are going to have Lloyd Wright working with 
you?
    Mr. Leonard. He has been assisting in the briefings.
    Chairman Harkin. Well, you could not find a better person, 
let me tell you that. OK?
    Mr. Leonard. He has been very helpful.
    Chairman Harkin. This guy is great. I know. He used to work 
for me. I see him sitting back there. You could not find a 
better person that knows that Department and knows how to get 
things done, so I recommend him highly for whatever you are 
using him for--well, I mean, it depends, I guess. But he is a 
great friend, and you are well advised to take his advice and 
consultation.
    Let me also say this, Dr. Leonard: I have known your boss--
well, you have two bosses. You have got the Secretary and you 
have got the President, obviously. I am talking about your 
immediate boss, the Secretary. I have known him for--well, let 
us see--just about 20 years now. Let me think about that. Yes, 
just about 20 years--before he was in office, when he was a 
mayor; when he was a State senator; of course, then as 
Governor. So I have just known him all these years.
    I can tell you that he gets it. When it comes to civil 
rights, this guy gets it. And you will not find a better boss 
and somebody to have on your side in clearing up this backlog. 
We have talked about it. This is not just something that he 
knows. I mean, he feels this in his guts. This guy gets it. So 
I just want you to know you've got someone I admire greatly, 
and I know how deeply committed he is to clearing this thing up 
once and for all. So you are going to have a good partner in 
that.
    Mr. Leonard. Thank you.
    Chairman Harkin. Jim, I said before, you know, one of the 
things we did in the farm bill, we put the money in there for 
the computers. This is kind of a mundane topic. But we put the 
money in there for computers for the RMA, but we were not able 
to get the money for the new computer system for the Farm 
Service Agency.
    Now, I have already heard little problems about this may be 
coming up, so the antiquated system in FSA creates some 
inefficiencies there for their personnel and program 
participants. I am hopeful that soon we can come up with the 
money for that. We have got to get that done somehow. But, 
again, would you address yourself to the prioritization of the 
need to ensure that the improvements to the RMA computer system 
will be compatible with the Farm Service Agency system so that 
this data is transferable?
    Now, that is kind of a mundane question, but I am telling 
you, I am already hearing that there may be some problems 
there. And this could slow things down, and, you know, we want 
to get these things moving as rapidly as possible. So if you 
could just address yourself to that need for those new 
computers at the FSA.
    Mr. Miller. Well, thank you, Mr. Chairman. It is time that 
we move the Department of Agriculture, and particularly the FSA 
and the RMA, into the 21st century. And I know during the 
debate over the farm bill, there were a lot of discussions 
about the need for new technology in both agencies. And, of 
course, we were always fighting a battle of the budget at that 
time, and we know that it is not going to get easier as we look 
down the road. But we are in a situation now that there is 
always the fear that we could lose our ability to actually 
deliver programs just because of the systems that exist.
    If confirmed, I certainly want to work with you and Senator 
Chambliss and your House colleagues to figure out a way not 
only to bring new technology to RMA, but I completely agree 
with you, we have to find a way to have an integrated system, a 
system that can literally talk back and forth across agencies, 
because it is extremely important that they be able to share 
information efficiently, and also a system that can be more 
readily accessible by the stakeholders, by farmers and 
ranchers. And we know that that has a cost associated with it, 
but we are suffering, I think, a very great cost the longer we 
delay.
    We cannot just keep patching this old system back together 
and expect that it is going to serve the needs of the country 
in terms of the programs that we have to deliver. And as we 
make these programs more and more complex--and whether we like 
it or not, that is exactly what we have done--the need is even 
greater.
    Chairman Harkin. One other thing, Jim, you know, we reduced 
the amount of acres in the CRP program down to 32, but that was 
not a limit. That was sort of a target. And now with all this 
talk about cap and trade--and we may actually pass that this 
year. I don't know. I am not on that Committee. But it is going 
to have an impact on agriculture, and I think, to speak for us, 
we want to make sure that Agriculture gets its rightful place 
in the ability to sequester carbon and to be able to 
participate in that.
    Obviously, one of the best areas for that is CRP, long- 
term land set-asides. And so I just wonder if you have given 
that any thought, and then we just need to work together to 
make sure that if, in fact, there is such a cap- and-trade 
system, that we do have a strong place for agriculture and for 
our farmers to be able to partake of the benefits of that. And 
CRP, it seems to me, is one of the best. I just wonder if you 
have any observations on that.
    Mr. Miller. Mr. Chairman, I certainly concur with you that 
the opportunities in rural America not only to increase our 
production of a lot of different forms of renewable energy, 
whether we are talking about renewable energy in the form of 
liquid fuels such as the next generation of ethanol through 
cellulosic production or wind energy or solar, are tremendous 
economic opportunities.
    At the same time, I believe that you are absolutely 
correct, if we are going to do something in terms of taking a 
serious effort at reducing greenhouse gases, agriculture needs 
to be a participant in that in a way that it can benefit from 
the new technologies, whether they are for crop farmers or 
livestock farmers, that may allow them to get paid for 
sequestering carbon, for instance.
    So I certainly look forward to working with you and other 
members of the Committee in ways that we can ensure that 
farmers are able to benefit from this exciting new industry in 
a lot of different ways.
    Chairman Harkin. Well, I am glad you added that. I did not 
put that in my question, but I am glad you added that because, 
obviously, wind energy and liquid fuels, biomass, all the 
things taking place, but also in addition to getting the 
benefits from carbon sequestration so that there could be a 
whole new income stream for farmers out there.
    Mr. Miller. I think it presents maybe the best single 
opportunity that we have seen in production agriculture, 
possibly since the Green Revolution in terms of what we might 
be able to do in the future.
    Chairman Harkin. All right. Thank you very much.
    Well, Dr. Merrigan, listening to your exchange on organics, 
it may be small, but it is the fastest growing part of 
agriculture in America today--the fastest growing part, even in 
Iowa. I think we must be--I think we are No. 2 now in the 
Nation. I think, if I am not mistaken, in the number of organic 
farms. And this has just burgeoned over the last few years.
    We used to have a saying in Iowa that if a young person 
wanted to get into agriculture, he did hogs, because you could 
turn pigs, you know, rapidly and it was a good cash-flow. Well, 
because pork production has now gotten larger and larger, more 
confined, to many of our younger farmers that is not a viable 
entryway now to agriculture. Organics is. We are finding a lot 
of young people in Iowa now with just a few acres able to grow 
organics and sell them at premium prices and get a good cash-
flow. They may be working in town and doing other things like 
that, but at least it gives them some cash-flow.
    Well, to that end, this Committee did quite a bit in the 
last farm bill on organics. I was just looking at it. We did 
the Organic Certification Cost-Share Program. We had $5 million 
in 2002 bill. We put $22 million in the 2008 bill for the cost 
share. Organic research, we authorized it in the 2002 bill. We 
put $78 million in the 2008 bill.
    For organic data collection, market data so we would have 
some market data out there for organic farmers to know what was 
happening, we authorized it in the 2002 bill, but we put $5 
million in the 2008 bill.
    And in the organic EQIP, we put transition money in there, 
made it available nationally so they would be eligible in the 
Environmental Quality Incentives Program, that they could be 
eligible for that.
    So we have, I think, on this Committee and in the House 
Committee recognized the importance of organic agriculture in 
this country and the need to do all we can to promote it.
    The demand is there. I have been talked to by people who 
run big grocery chains, and they have said to me they have to 
import organics because they cannot get enough here. That does 
not make sense to me. If the demand is there and the public is 
demanding it--and they are--then it seems to me we ought to be 
doing all we can to enhance and support it and to do all we can 
in the Department to help these organic producers. It is the 
breadth of everything now. It is vegetables, milk, dairy 
products, meat. All kinds of meat products now are organic, and 
the public is demanding it.
    So I am hopeful that you will continue to provide strong 
leadership in this area, strong leadership, because this 
Committee has spoken, and I also feel very strongly about it, 
that we need to make sure we support organic agriculture and 
organic farmers. And, you know, you said you want to be 
provocative. I wrote that down. That is good. Sometimes we need 
to provoke thinking, and new ways of thinking, in so many 
things that we do. So I am hopeful that you will use your 
position to continue to support what we did in this Committee 
to move ahead aggressively in those areas.
    The second thing I would bring up is the Conservation 
Security Program. You testified on that, on the Conservation 
Security Program. Well, we now call it the Conservation 
Stewardship Program, but it is basically the same. We just made 
it nationwide instead of in watersheds. And so you are very 
familiar with it.
    Secretary Vilsack said he wants to get the Conservation 
Stewardship Program into effect as quickly as possible, and I 
just wonder if you have any views on that and how we are going 
to fit that into the overall structure of our farm program 
system.
    Ms. Merrigan. Thank you, Mr. Chairman. I think the CSP is a 
wonderful program. ``Reward the best, motivate the rest'' I 
believe is the motto. I would want to work with Secretary 
Vilsack to put it right there on the front line as quickly as 
possible to implement the new changes that came forth in the 
2008 farm bill. I love the basic concept of rewarding farmers 
for their stewardship. As Senator Chambliss said, farmers do 
not want to be out there degrading land, hurting their own 
chances of success. And we need to find new tools to help them 
and to reward them for their efforts.
    So one of my goals as Deputy would be to be working with my 
colleagues here at the table and really trying to implement an 
exciting array of new programs as well as fine- tuning of old 
programs that are in that historic 2008 farm bill. We need to 
get downtown, and we need to get to work as soon as possible.
    Chairman Harkin. Well, I hope we can make that happen.
    I see we are joined by another distinguished Chairman of 
the Agriculture Committee on the House side. Senator Roberts?
    Senator Roberts. Well, thank you, Mr. Chairman, and we have 
got quite a few Chairmen, as a matter of fact.
    Chairman Harkin. We have got them all over the place around 
here.
    Senator Roberts. I want to congratulate all of the nominees 
today. Each of you has a great task ahead and a lot of 
challenges. We all know that. If you are going to walk into any 
rural America coffee shop, ask five farmers what is on their 
mind in regard to the future of farm policy, you will probably 
get quite a variety of responses. And probably your coffee 
would be cold by the time that you get to enjoy it, and 
especially if they have figured out who you were and what you 
were in charge of.
    As you know, we have had an awful lot of increased input 
costs despite rising commodity prices. Declining prices, now 
they are coming back up, and the weather constantly weigh 
heavily on the minds of our producers. We just had one heck of 
a snowstorm out on the plains, 30 inches of snow in a small 
town in Kansas, set a record. It was good it was wet and stayed 
a little bit, so hopefully that will help out with the wheat 
crop.
    But our farmers and ranchers have to worry about other 
factors affecting their operations, and they are asking what is 
going to happen. What will the Government do next in regards to 
farm program policy? What additional regulations will they 
impose on agriculture? How much of the safety net will they cut 
away and give to other priorities? Let me repeat that. How much 
of the safety net will they cut away and give to other 
priorities, which I have some problems with?
    So these concerns are real, and, unfortunately, we do not 
have clear answers. And on top of these concerns, our producers 
seem to have fewer and fewer advocates willing to engage, it 
seems to me on their behalf in the public fight. And I think 
that is where you all can really help.
    Through your positions, I hope you will join the many of us 
in the Congress and on this Committee in public defense of all 
of our farmers and ranchers--Dr. Merrigan and I had a good 
discussion about this--regardless of size or structure or 
commodity or geographic location. As we used to say in the 
House, when I had the privilege of serving there and was 
Chairman and working with the great Chairman of the Committee 
over there, Kika de la Garza, he used to say either hang 
together or hang separately.
    We must not lose sight of the fact, I think, that our 
farmers and ranchers continue to produce the safest, most 
abundant, and affordable food supply in the world. I do not 
know how many times Chairman Harkin and Chairman Chambliss have 
said that or I have said that, but it needs repeating because 
we just--we do not have the ag press that we used to have, and 
there are just an awful lot of folks that I think have 
forgotten about the value of production agriculture, and by 
``production,'' I am not defining that by size by any means, or 
crop.
    Dr. Merrigan, I really appreciate your spending some time 
with me in my office. We had a good talk, and I appreciate 
that. And we get wrapped around the axle--unnecessarily, I 
might add--sometimes trying to define who is a small family 
farmer or who is a large family farmer or who is a family 
farmer. Instead, I think we should focus on the policies that 
benefit all of agriculture.
    My question to you: How will you as Deputy at the 
Department work to ensure that the concerns of all of 
agriculture are addressed? And we talked about this. You can 
shorten up your reply. I think I know what you are going to 
say. I appreciate it.
    Ms. Merrigan. Thank you, Senator. I actually have some 
former students in the back of the room, and they would tell 
you when they get to my class and they start talking about 
family farmers, factory farmers, corporate farmers, all of this 
rhetoric, I say, ``Get rid of it all.'' Get rid of all that 
terminology. Let us not vilify the big guys, make the little 
guys the heroes of the day. Let us talk about how we are going 
to make American agriculture work, various sizes, various 
different kinds of production schemes, various different kinds 
of models. And we want it all to work, and that is very, very 
important to me.
    I have had a history of leadership in agriculture, one that 
I embrace and am proud of, but I also think that I have worked 
very closely with the livestock sector. I have worked with the 
Cotton Council. I have worked with various commodity groups. 
And I want American agriculture to succeed, and that requires a 
diversity of approaches. It requires clear rules, certainty of 
program operation, and good management skills in the Department 
of Agriculture, and I would like the opportunity.
    Senator Roberts. I appreciate your answer. Your response 
was exactly the way we wrote it.
    [Laughter.]
    Senator Roberts. Mr. Miller, let me express my appreciation 
from all of us for all your hard work during the 2008 farm bill 
and previous farm bills. You have been a tireless supporter of 
ag policy for a number of years, and this administration I 
think is very well served to have you as part of the team.
    The Standard Reinsurance Agreement is scheduled to be 
renegotiated this year in reference to crop insurance. The crop 
insurance program--I remember Bob Kerrey and I working to try 
to improve that with the help of both gentlemen here. And, 
unfortunately, in my view, the crop insurance program has been 
used as a bank in too many instances to fund other programs. 
They are valuable programs, do not misunderstand me, but they 
should not be funded at the expense, again, of safety net 
programs for our farmers.
    What do you think the goals of the renegotiation should be? 
What will be your priorities as it moves forward?
    Mr. Miller. Well, Senator, first of all, I am well aware of 
all the work you and former Senator Kerrey and the Chairman and 
Senator Chambliss put into ensuring that we have a viable 
Federal crop insurance program out there as a significant part 
of the safety net for farmers and ranchers. And I certainly 
support the program. I understand how important it is to our 
producers, and that importance has only grown, which I think is 
a testament to the work that you all did with the Agriculture 
Risk Management Protection Act.
    So certainly as we get into the renegotiation of the SRA--
and I am not in the position where I want to lay out what I 
think a negotiating strategy ought to be prior to going into 
those negotiations--I think the end result has got to be a new 
agreement with the companies, with our partners that are 
providing that crop insurance out there that ensures that the 
American farmers and ranchers who want to participate in it 
still have a very good product. I think we can improve on that 
product in a number of ways, and I certainly want to explore 
that not only with the companies, with the RMA professionals 
that we have at the Department, but certainly with you and your 
colleagues on how we can do that, and at the same time how can 
we improve the efficiency of the delivery and the accounting 
for those programs.
    The Chairman brought up the issue of technology, and 
certainly there is an area where, with the correct technology, 
if we can get that implemented, the savings for both the 
companies and the Government could be significant. We are 
spending, I believe, way too much time trying to push paper and 
trying to make systems that cannot talk to each other 
communicate, and it is not working.
    So I hope we can pursue that, and I think that is an area 
where both our private sector partners and RMA should be able 
to find some common ground. But we all know that we face a 
fiscal dilemma in this country, and, you know, we are going to 
have to address that head on. And, quite frankly, you know, I 
do not think farmers and ranchers ultimately are going to be 
immune from that. I think everyone is going to share in some of 
that pain.
    But I want to ensure that we have the best possible crop 
insurance program out there for our producers, and when I say 
``our producers,'' I mean producers of all scales in all parts 
of the country.
    Senator Roberts. Well, thank you for that answer, and I 
would only observe that, first, working on crop insurance- -and 
I think that is when, Tom, you and I were over on the House 
side. And I was working for Keith Sebelius then, but at any 
rate, a lot of talk at that particular time as to whether there 
should even be a Federal crop insurance program. That was a 
giant step for us, and certainly I think a very good one.
    The reality is that if you do not have a good crop 
insurance program and make it attractive and make it a true 
safety net, you are going to get into an emergency bill every 
year. It used to be that they were every even- numbered year. I 
think you know why that would be, but depending on whatever 
weather catastrophe that we would have. But, my gosh, if you 
get into these emergency bills, these disaster bills, they are 
a disaster to try to pass to begin with, costly, and they are a 
disaster to implement. I think most members who have worked on 
past disaster bills in a very honest effort to be of help to 
our producers in the various sections of the country, what 
would happen is that they would issue a press release when they 
passed it, and then in the implementation, they sort of went 
home for 6 months or did not really talk about it or very 
difficult to do that. And it is very time-consuming and very 
costly, and that is why a good crop insurance program I think 
is absolutely essential.
    Thank you for your statement, Dr. Leonard. I am not trying 
to overlook you. I think we will just approve you and go on 
down the road.
    I thank all the witnesses for being here, and thank you for 
holding this confirmation hearing, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Roberts, and 
can I just say amen to what you just said about crop insurance. 
Pat and I may not always agree on everything in agriculture, 
but this is one thing we do agree on, in lockstep, on crop 
insurance. I think we all pretty much basically agree on crop 
insurance here. We do have to make sure it works and works 
well.
    Well, we are just about ready to start our votes on the 
Senate floor. I would ask if any of you have any other 
statements or any other things you would like to say before we 
call this to a close. Going once, going twice, going three 
times.
    [No response.]
    Chairman Harkin. Well, again, thank you for your 
willingness to serve in this administration.
    The Committee has received letters of support for each of 
the nominees. I ask unanimous consent those letters be made a 
part of the record.
    [The letters can be found on pages 136 through 185 in the 
appendix.]
    Chairman Harkin. We have already told offices that any 
written questions need to be submitted by 6 p.m. today, and the 
USDA intends to return those answers by early tomorrow. And in 
consultation with the Ranking Member, we will see how we can 
expedite this process so that we can get the three of you 
confirmed as soon as possible.
    To all of you--oh, I am sorry. We do have another member of 
the Committee who just arrived. In the nick of time, John. I 
was getting ready to bang the gavel.
    [Laughter.]
    Chairman Harkin. The distinguished Senator from South 
Dakota, Senator Thune.
    Senator Thune. Thank you, Mr. Chairman, and if you are 
ready to wrap up, I can certainly submit some of my questions 
for the record. But I do thank you for holding the hearing, and 
I thank our nominees for their willingness to serve.
    I just want to, I guess, say that with respect to the 
issues that I am interested in and concerned about, as we all 
know, we wrote a farm bill last year, and there are certain 
provisions in that farm bill that we want to get up and going. 
In particular, I would reference the disaster assistance 
program which is still being, I think--we have not seen 
regulations on. And the other thing I would mention, too, Mr. 
Chairman, and that was a program that we worked some together 
on, the BCAP program, the Biomass Crop Assistance Program, 
which I am told now is going to require an EIS, which I think 
is going to delay this a long time. But I hope that the 
Department will move quickly on both those programs. They are 
both important to at least the people that I represent in South 
Dakota, the disaster assistance program as well as the BCAP 
program and the next generation of biofuels, which I think 
everybody wants to get to. Everybody wants to move to the next 
generation of biofuels, and it is going to be really important 
that we get these programs up and going and get the rules 
issued on those.
    There are a couple observations I would make, Mr. Chairman, 
and I might pose a question or two along those lines to Mr. 
Miller. But I would submit those for the record if that is----
    Chairman Harkin. If the Senator wanted to ask a couple of 
questions, that is what we are here for, and they have not 
called the votes yet, but they are getting ready to pretty 
soon. So I would be more than willing to let the Senator go 
ahead and ask some questions.
    Senator Thune. OK. Well, I would just, if I could, then, 
ask Mr. Miller, who will be the Under Secretary of Ag for Farm 
and Foreign Ag Services, the BCAP program that I mentioned, I 
am hoping that we can perhaps figure out a way to expedite this 
EIS process. But I would just simply, I guess, ask if there are 
some ways that we could do the environmental assessment that 
might make that process move along a little more quickly. I 
think it could be a long time, and there could be a lot of 
delays if the full-blown EIS is--and it can be done, but is 
there a way we could do an environmental assessment and begin 
to implement the program while the EIS is being complete. I 
guess that is my question.
    Mr. Miller. Thank you, Senator. Let me just say, first of 
all, I think the work that you and Senator Klobuchar and many 
other members of the Committee did on the Biomass Crop 
Assistance Program truly is important as we try to resolve what 
really amounts to a chicken-and-egg problem in terms of getting 
to this next generation of biofuels. And that program is going 
to be, I believe, extremely important as we try to grow that 
industry and grow it successfully.
    Specifically concerning the issue that you have raised, if 
confirmed, and as I pointed out in my statement for the record, 
I am going to work as hard as I can to get the various 
programs, including the BCAP program, implemented as 
expeditiously as possible. And certainly when I get to the 
Department, I think we need to explore whatever options might 
be available to us to expedite that. I realize the BCAP 
program, in this farm bill at least, has a limited life. It 
would expire in 2012. We are already somewhat delayed in moving 
ahead, and it is my goal to advance those regulations and get 
as many of these programs off the ground in as short a time 
span as possible, including the BCAP program. It is going to be 
extremely important to us as we move ahead.
    Senator Thune. And could you comment, as long as we are on 
the subject, on the disaster assistance program and where we 
are with that?
    Mr. Miller. Well, again, if confirmed, certainly one of my 
goals is to move ahead as quickly as possible with implementing 
the disaster assistance program. Now, within that program 
specifically, final calculations cannot be made until we get to 
the end of the marketing year for various crops. But certainly 
I hope to be able to ascertain what the status of the 
regulatory process is, if confirmed, once I get to the 
Department, and advance that process as much as possible.
    I realize that we have already experienced disasters that 
should be assisted under that program that occurred in 2008. We 
are now rapidly approaching the spring planting season for the 
2009 crop. In fact, it has begun in some of the Southern 
States. We need to at least get the rules designed and the 
program out there so farmers--in particular, their creditors--
can look at it and be able to predict with greater certainty 
what the outcomes might be when we do get to the point where we 
can finally begin issuing payments.
    So I am very interested in expediting that. I know there 
was a lot of work in the farm bill in creating this disaster 
program, and certainly it would be my goal to implement it 
consistent with the intent of Congress.
    Senator Thune. It was one of the more difficult parts, I 
think, of the farm bill, as you know, and I just hope that we 
can get the permanent program in place and regulations issued. 
We already are having, with the winter blizzards in my State, a 
lot of dead cattle. A lot of ranchers are having an awfully 
hard time getting out to check on their cattle. And so this is 
a persistent problem in our part of the world, and the 
permanent disaster program was designed to anticipate some of 
these things rather than reacting to them. And I think it is 
important that we get the program up and going, so I hope that 
you will work as hard as you can once you get there to get 
after that.
    Thank you all. Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Thune. I think that 
will conclude our proceedings.
    As I said, I have discussed with Senator Chambliss how to 
expedite this. Hopefully we can get it done as soon as possible 
so you can all get in your offices and get to work right away. 
Again, I congratulate you all and all your families who are 
here today. It is a great honor, but it is also a great 
responsibility, and we look forward to working with you as co-
equal branches of the Government to strengthen our agricultural 
system in America in all of its aspects--in all of its aspects.
    With that, the Senate Committee will stand adjourned. 
[Whereupon, at 3:28 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             April 1, 2009



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 1, 2009

=======================================================================


</pre></body></html>
